                                                                       Issue Date
                                                                       May 14, 2008

                                                                       Audit Report Number

                                                                       2008-AT-0003




TO:        Milan Ozdinec, Deputy Assistant Secretary for Public Housing and Voucher
           Programs, PE



FROM:      James D. McKay
           Regional Inspector General for Audit, 4AGA

SUBJECT:   HUD Lacked Adequate Controls over the Physical Condition of Section 8
           Voucher Program Housing Stock


                                  HIGHLIGHTS

 What We Audited and Why


           As part of the U.S. Department of Housing and Urban Development (HUD),
           Office of the Inspector General’s (OIG) strategic plan, we audited HUD’s controls
           over the physical condition of Section 8 housing stock for the Housing Choice
           Voucher program. Our audit objective was to determine whether HUD had
           adequate controls to ensure that its Section 8 housing stock was in material
           compliance with housing quality standards.

 What We Found


           HUD did not have adequate controls to ensure that its Section 8 housing stock
           was in material compliance with housing quality standards. This condition
           occurred because HUD had not fully implemented its Section 8 Management
           Assessment Program. As a result, it could not ensure that the primary mission of
           the Section 8 program, paying rental subsidies so that eligible families can afford
                  decent, safe, and sanitary housing, was met. In addition, HUD’s lack of
                  knowledge regarding the condition of its Section 8 housing stock resulted in
                  inflated performance ratings for public housing agencies administering the
                  program. Consequently, HUD routinely rated some agencies as being high
                  performers when a significant percentage 1 of the units they administered were in
                  material noncompliance 2 with housing quality standards.

                  HUD was revising its Section 8 regulations. These revisions included developing
                  a physical inspection system to help ensure that HUD’s Section 8 housing stock is
                  in material compliance with housing quality standards.

What We Recommend


                  We recommend that HUD continue with the planned revision of its Section 8
                  program regulations and complete departmental clearance of the proposed
                  revisions by the end of fiscal year 2008. We also recommend that HUD
                  implement the proposed changes within three years of the issuance of this report.

                  For each recommendation without a management decision, please respond and
                  provide status reports in accordance with HUD Handbook 2000.06, REV-3.
                  Please furnish us copies of any correspondence or directives issued because of the
                  audit.

Auditee’s Response

                  We discussed the findings with HUD officials during the audit. We provided a
                  copy of the draft report to HUD officials on April 03, 2008, for their comments
                  and discussed the report with the officials at the exit conference on April 16,
                  2008. HUD provided its written comments to our draft report on April 24, 2008.

                  HUD generally agreed with the finding and recommendations. The complete text
                  of HUD’s response, along with our evaluation of that response, can be found in
                  appendix C of this report.




1
  We defined “significant” as at least 33 percent of the inspected units being in material noncompliance with housing
quality standards.
2
  Units were deemed to be in material noncompliance with housing quality standards because of the overall poor
condition of the unit, and/or one of the fail conditions was a 24 hour-emergency deficiency, and/or one of the fail
conditions was a preexisting condition that either was not identified or not reported at the time of the Agency’s last
inspection, and/or the unit had inadequate repairs.



                                                    2
                           TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
      Finding 1: HUD Lacked Adequate Controls over the Physical Condition of Its   6
                 Section 8 Housing Stock

Scope and Methodology                                                              10
Internal Controls                                                                  11
Appendixes
   A. Summary of Recent OIG Audits (Fiscal Year 2007)                              12

   B. Agencies with High HUD Section 8 Management Assessment Program Scores        16
      but Very Poor Housing Quality

   C. Auditee Comments and OIG’s Evaluation                                        17




                                       3
                        BACKGROUND AND OBJECTIVES

Through the Housing Choice Voucher program, the U.S. Department of Housing and Urban
Development (HUD) pays rental subsidies so that eligible families can afford decent, safe, and
sanitary housing. For housing to be considered decent, safe, and sanitary, it must meet the
housing quality standards established by HUD. 3 The program is generally administered by state
or local governmental entities called public housing agencies.

Through an annual contributions contract, HUD agrees to make payments to the agency for
housing assistance to housing providers. HUD also pays the agency an administrative fee for
administering the program. In turn, the agency agrees to administer the program in accordance
with HUD regulations and other requirements established by HUD.

HUD expends nearly half of its fiscal year budget on its Section 8 voucher program. For
example, in fiscal year 2007, HUD paid almost $16 billion (47 percent) of its $33.5 billion
budget for tenant-based rental assistance. These funds helped provide housing for about two
million eligible low-to-moderate-income families.

HUD measures the performance of the public housing agencies that administer the Housing
Choice Voucher program through its Section 8 Management Assessment Program, which scores
the agencies in 14 key areas or indicators. These performance indicators show whether public
housing agencies help eligible families afford decent rental units at a reasonable subsidy cost as
intended by federal housing legislation. An agency must submit the HUD-required Section 8
Management Assessment Program self-certification form within 60 calendar days after the end
of its fiscal year. HUD annually assigns each public housing agency a rating for each indicator
and an overall performance rating of high, standard, or troubled.

As part of HUD’s 2005 and 2006 fiscal year budgets, Congress mandated that the Office of
Inspector General (OIG) perform additional audits and investigations of HUD’s Section 8
voucher program. House Reports 108-674 and 109-153 read in part, “The Committee directs the
[O]IG to increase its audits and investigative efforts related to Public Housing Agencies’
administration of the Section 8 voucher program.” As a result of this congressional mandate,
OIG developed a work plan whereby additional resources would be dedicated to performing the
requested audits. In particular, the work plan specified that audit objectives for fiscal years 2005
and 2006 would include determining whether housing authorities ensured that housing units were
decent, safe, and sanitary. During the past three fiscal years, OIG performed 47 such audits and
found that a significant percentage of Section 8 housing stock administered by the agencies was
in material noncompliance with housing quality standards.

As a result of the audits of the agencies, we conducted a review of HUD’s management controls
over the physical condition of its Section 8 housing stock. The objective of the review was to


3
 Regulations at 24 CFR (Code of Federal Regulations) 982.401 require that all program housing meet the housing
quality standards performance requirements both at commencement of the assisted occupancy and throughout the
assisted tenancy.


                                                 4
determine whether HUD had adequate management controls in place to ensure that its Section 8
housing stock was in material compliance with housing quality standards.




                                         5
                                 RESULTS OF AUDIT

Finding 1: HUD Lacked Adequate Controls over the Physical Condition
            of Its Section 8 Housing Stock
HUD did not have sufficient internal controls to ensure that its Section 8 housing stock was in
material compliance with housing quality standards. This condition occurred because HUD had
not fully implemented the Section 8 Management Assessment Program. As a result, it
potentially spent billions of dollars to assist thousands of eligible families in paying for housing
that was not decent, safe, and sanitary. In addition, HUD’s lack of knowledge regarding the
condition of its Section 8 housing stock resulted in inflated performance ratings for public
housing agencies administering the program. HUD routinely rated some agencies as being high
performers when a significant percentage of their units were not in material compliance with
housing quality standards.



HUD had not Implemented
Planned Controls


               The effective date of HUD’s final rule establishing the Section 8 Management
               Assessment Program was October 13, 1998. HUD modeled the Section 8
               Management Assessment Program procedures on the Public Housing Assessment
               System performance indicators for evaluating housing authorities administering
               public housing. In the implementing regulations, HUD noted that the Public
               Housing Assessment System performance indicators placed substantial weight on
               a physical assessment component. Realizing the importance of such a control
               component, the published final rule reads in part, “Although this SEMAP [Section
               8 Management Assessment Program] final rule does not include a physical
               assessment component, it is HUD’s intention to develop a physical inspection
               system for Section 8 tenant-based assistance once the Department and the
               industry have gained experience with the new PHAS [Public Housing Assessment
               System] system.”

               It had been more than nine years since the establishment of the Section 8
               Management Assessment Program, and HUD staff and management agreed that
               there was not yet a requirement for HUD to perform housing quality standards
               inspections as part of its monitoring efforts. HUD staff and management
               speculated that such a system had not been developed and implemented due to a
               lack of funding and/or staffing.




                                            6
A Significant Percentage of
Section 8 Housing Did Not Meet
Standards


           Our housing quality standards audits of public housing agencies administering the
           Section 8 program consistently showed that a high percentage of the housing
           stock they administered did not meet minimum standards. Of the 47 audits we
           performed over the past three fiscal years, 14 were performed during fiscal year
           2007. For these 14 audits, we inspected a total of 726 Section 8 units and found
           that 362, or about 50 percent, were in material noncompliance with housing
           quality standards. For only these 14 agencies, we estimated that if systems were
           not improved to ensure that units met housing quality standards, HUD would
           spend a minimum of $38.5 million the following year for units that were in
           material noncompliance.

           Since these audits did not comprise a statistical sample of the housing stock
           nationwide, we could not accurately estimate how much HUD annually expended
           for housing in material noncompliance with housing quality standards. However,
           the audit results showed that much of the Section 8 assistance provided by the
           housing agencies we audited had gone toward helping families pay for housing
           that was not decent, safe, and sanitary (see appendix A for summaries of the
           housing quality standards audits issued in fiscal year 2007).

HUD Rated Some Agencies Too
High

           While we informed HUD regarding Section 8 housing quality deficiencies for the
           housing agencies we audited, HUD was otherwise generally uninformed
           regarding housing quality either at specific agencies or nationwide. This
           condition was largely due to the lack of a requirement for HUD to perform
           housing quality inspections as part of the annual assessment of agencies’ overall
           administration of the program. HUD’s monitoring efforts focused on assessing
           agencies’ compliance with documentation/calculation requirements, while
           generally not assessing the physical condition of the Section 8 units. The lack of
           a physical inspection requirement resulted in unreliable performance ratings for
           public housing agencies administering the program. HUD routinely rated
           agencies as high performers, while our audits showed that a significant percentage
           of the Section 8 units they administered were in material noncompliance with
           housing quality standards.

           Regulations at 24 CFR (Code of Federal Regulations) 985.3 detail the method by
           which HUD must review each public housing agency that administers the Section
           8 program. HUD uses a series of 14 program indicators to assess each public



                                       7
          housing agency’s compliance with Section 8 program requirements. Each
          indicator has a set of criteria by which HUD assesses the public housing agencies’
          compliance with HUD requirements and a corresponding verification method that
          HUD must use. There are four Section 8 Management Assessment Program
          indicators that relate to housing quality standards:

                 Indicator 5 – housing quality standards quality control,
                 Indicator 6 – housing quality standards enforcement,
                 Indicator 11 – precontract housing quality standards inspections, and
                 Indicator 12 – annual housing quality standards inspections.

          The verification methods used to determine the accuracy of the indicators related
          to housing quality standards did not require physically inspecting an agency’s
          Section 8 housing. Instead, HUD relied on systems data, independent public
          accountant reports, public housing agency self certifications, or a review of files if
          an on-site confirmatory review was performed.

          We visited three HUD field offices during the audit and found that they varied
          greatly with respect to performing Section 8 housing quality standards
          inspections. One office did not perform such inspections as part of its on-site
          Section 8 Management Assessment Program reviews, while another claimed to
          perform housing quality standards inspections during all of its on-site reviews.
          Yet another claimed to perform inspections but not during every one of its on-site
          reviews. Even when housing quality standards inspections were performed
          during on-site reviews, the units selected for inspection were not identified
          statistically. Thus, the results of the inspections could not be projected to the
          universe of units the agency administered and were not necessarily representative
          of the selected agencies’ housing stock. The lack of a HUD-wide policy for
          verification of housing quality resulted in both inconsistent inspection efforts by
          field offices and questionable overall performance ratings for housing agencies.

          For the 14 Section 8 housing quality standards audits we issued in fiscal year
          2007, HUD clearly overrated five of the housing agencies audited. HUD rated
          these agencies as high performers, although from 49 percent to 95 percent of their
          units were in material noncompliance with housing quality standards (see table in
          appendix B).

HUD Planned Improvements


          HUD was revising the Section 8 Management Assessment Program regulations,
          24 CFR Part 985, as well as the regulations regarding housing quality standards
          performance and acceptability requirements, 24 CFR 982.401.

          HUD’s stated intent was to move away from public housing agencies self-



                                       8
          certifying their administration of the Section 8 program and to rely more heavily
          on on-site documentation reviews and housing quality standards inspections to
          determine an agency’s compliance with HUD requirements.

Summary



          Because HUD did not have adequate controls over the physical condition of its
          Section 8 housing stock, it could not ensure that the mission of paying rental
          subsidies so that eligible families can afford decent, safe, and sanitary housing
          was met. In fiscal years 2005 through 2007, OIG performed 47 audits of agencies
          that administered HUD’s Section 8 program and found that a significant
          percentage of the units were in material noncompliance with housing quality
          standards. Further, HUD routinely rated housing authorities as Section 8
          Management Assessment Program high performers, while a significant
          percentage of the units were in material noncompliance with housing quality
          standards.

          We support HUD’s efforts to revise the Section 8 regulations to require
          verification of housing quality for Section 8 vouchers administered by public
          housing agencies. Our report recommendations are based on HUD’s plans, and
          we believe their implementation will represent a substantial improvement in
          internal controls over the physical condition of the Section 8 housing stock.
          Improved internal controls will better ensure that in the future, HUD pays rental
          subsidies on behalf of eligible families to assist them in affording decent, safe,
          and sanitary housing.

Recommendations

          We recommend that you

          1A. Complete the departmental clearance process of the proposed revised
              Section 8 regulations by the end of fiscal year 2008.

          1B   Allow the proposed revisions to Section 8 Management Assessment
               Program and housing quality standards to go through the proper process and
               carefully consider all questions and comments made by the affected parties
               (HUD Office of Public and Indian Housing staff, tenants, landlords, Real
               Estate Assessment Center, HUD OIG, etc.) before publishing the final rule.

          1C   Fully develop and implement a physical inspection system for the tenant-
               based Housing Choice Voucher program within three years of the issue date
               of this report.




                                      9
                       SCOPE AND METHODOLOGY

Our audit objective was to determine whether HUD had management controls to ensure that its
Section 8 housing stock was in material compliance with housing quality standards. To
accomplish our objective, we

   •   Reviewed applicable laws, regulations, and other HUD program requirements, including
       applicable sections of the Code of Federal Regulations, HUD’s Housing Choice Voucher
       Guidebook (7420), and notices.

   •   Interviewed HUD headquarters and field management and staff.

   •   Reviewed agency monitoring documentation, program budget figures, and Office of
       Public and Indian Housing annual management plans (agency-wide and in the field).

We conducted our audit from October 2007 through February 2008 at both the headquarters and
field level. Our audit period was from October 1, 2005, through September 30, 2007. We
expanded our audit period as needed to accomplish our objectives.

We performed our review in accordance with generally accepted government auditing standards.




                                         10
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

       • Effectiveness and efficiency of operations,
       • Reliability of financial reporting, and
       • Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined the following internal controls were relevant to our audit objectives:

       •   Compliance with laws and regulations - Policies and procedures that management
           has implemented to reasonably ensure that resource use is consistent with laws and
           regulations.

       •   Safeguarding of resources - Policies and procedures that management has
           implemented to reasonably ensure that resources are safeguarded against waste, loss,
           and misuse.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.


 Significant Weaknesses


       Based on our review, we believe the following item is a significant weakness:

       •   HUD did not have management controls in place to ensure that its Section 8 housing
           stock was in material compliance with housing quality standards (finding 1).




                                          11
                                     APPENDIXES

Appendix A
  SUMMARY OF RECENT OIG AUDITS (FISCAL YEAR 2007)

Agency name: Newport News Redevelopment and Housing Authority
Report number:    2007-PH-1009
Issue date:       July 24, 2007

The Authority often did not operate its program in accordance with HUD requirements and
regulations. It often failed to ensure that its program housing stock met housing quality
standards, did not adequately support housing assistance payments, and incorrectly calculated
housing assistance payments. Of the 66 housing units inspected, 54 did not meet HUD’s housing
quality standards, and 28 had 98 violations that existed at the time of the Authority’s previous
inspection. This condition resulted in $110,850 in housing assistance payments and
administrative fees paid by HUD for units that were not decent, safe, and sanitary. We also
estimated that over the next year, HUD would pay more than $4 million in housing assistance for
units with material housing quality standards violations.

Agency name: The Housing Commission of Anne Arundel County
Report number:     2007-PH-1011
Issue date:        August 14, 2007

The Commission did not always operate its program in accordance with HUD requirements and
regulations. It did not always ensure that its housing choice voucher housing stock met housing
quality standards. Of the 61 housing choice voucher units inspected, 35 did not meet HUD’s
housing quality standards, and 30 had 117 material violations that existed on or before the
Commission’s previous inspections. The Commission paid $116,522 in housing assistance for
the 30 units with material violations. We estimated that over the next year, HUD would pay
more than $2.1 million in housing assistance for units with material housing quality standards
violations.

Agency name: The Housing Authority of the Birmingham District
Report number:     2007-AT-1001
Issue date:        October 25, 2006

The Authority failed to ensure that its Section 8 housing stock met housing quality standards.
We determined that 88 percent, or 58 of 66 units, did not meet housing quality standards. Of the
58 units, 38 were in material noncompliance. The Authority’s management did not implement
adequate internal controls over its inspection process and did not have adequate procedures for
conducting inspections. As a result, tenants lived in units that were not decent, safe, and
sanitary, and the Authority made housing assistance payments for units that did not meet
standards. We estimated that over the next year, the Authority would pay more than $10.4



                                          12
million in housing assistance for units in material noncompliance with housing quality standards
if it did not implement adequate controls.

Agency name: The Puerto Rico Department of Housing, San Juan
Report number:     2007-AT-1005
Issue date:        March 29, 2007

Of the 66 units inspected, 63 (95 percent) did not meet minimum housing quality standards, and
23 of those were in material noncompliance. As a result, Section 8 program funds were not used
efficiently and effectively to provide units that were decent, safe, and sanitary; and the authority
made housing assistance payments for units that did not meet standards. We estimated that over
the next year, the authority would disburse housing assistance payments of more than $2.6
million for units in material noncompliance with housing quality standards if it did not
implement adequate controls.

Agency name: The Housing Authority of DeKalb County, Decatur, Georgia
Report number:     2007-AT-1008
Issue date:        April 30, 2007

Based on the review of 15 inspections of Authority-administered Section 8 units, the Authority
adequately performed housing quality standards inspections and required timely correction of
inspection discrepancies. The inspections identified minor deficiencies in 10 of the 15 units
inspected. Two of the units had insignificant preexisting violations that were not identified by
the Authority's inspectors.

Agency name: The Housing Authority of the City of Evansville
Report number:     2007-CH-1003
Issue date:        February 13, 2007

Of the 63 housing units inspected, 48 did not meet HUD’s housing quality standards, and 44 had
230 violations that existed at the time of the Authority’s previous inspections. The 44 units had
between 1 and 18 preexisting violations per unit. Based on the statistical sample, we estimated
that over the next year, the Authority would pay more than $1.5 million in housing assistance for
units with housing quality standards violations.

Agency name: The Dayton Metropolitan Housing Authority
Report number:     2007-CH-1008
Issue date:        June 19, 2007

Of the 59 housing units inspected, all 59 did not meet HUD’s housing quality standards, and 56
had 214 violations that existed at the time of the Authority’s previous inspections. The 56 units
had between 1 and 11 preexisting violations per unit. Based on the statistical sample, we
estimated that over the next year, HUD would pay nearly $1.8 million in housing assistance for
units with housing quality standards violations.




                                            13
Agency name: The Madison County Housing Authority, Collinsville, Illinois
Report number:     2007-CH-1010
Issue date:        July 20, 2007

Of the 48 housing units inspected, 40 did not meet HUD’s housing quality standards, and 35 had
264 violations that existed at the time of the Authority’s previous inspections. The 35 units had
between 1 and 34 preexisting violations per unit. Based on the statistical sample, we estimated
that over the next year, HUD would pay more than $623,000 in housing assistance for units with
housing quality standards violations.

Agency name: Peoria Housing Authority
Report number:      September 24, 2007
Issue date:         2007-CH-1014

Of the 59 housing units inspected, 58 did not meet HUD’s housing quality standards, and 28 had
88 exigent health and safety violations that existed at the time of the Authority’s previous
inspections. The 28 units had between 1 and 18 preexisting exigent health and safety violations
per unit. Based on the statistical sample, we estimated that over the next year, HUD would pay
more than $1 million in housing assistance for units with housing quality standards violations.

Agency name: The Plymouth Housing Commission
Report number:      2007-CH-1016
Issue date:         September 28, 2007

Of the 61 housing units inspected, 42 did not meet HUD’s housing quality standards, and 38 had
181 health and safety violations that existed at the time of the Commission’s previous
inspections. The 38 units had between 1 and 15 preexisting health and safety violations per unit.
Based on the statistical sample, we estimated that over the next year, HUD would pay more than
$1.4 million in housing assistance for units with housing quality standards violations.

Agency name: The Lubbock Housing Authority
Report number:     2007-FW-1001
Issue date:        October 16, 2006

Of 61 units inspected, 47 (77 percent) failed inspections, and 30 (49 percent) were materially
noncompliant with housing quality standards. The failures occurred because the Authority’s
Section 8 program lacked effective management and controls over the inspection process;
specifically, the program had inadequate written policies and procedures, poor inspections, no
quality control system, and negative staffing issues. As a result, the Authority housed families in
units that did not meet HUD’s standards of decent, safe, and sanitary housing. If the Authority
did not implement effective management and controls, we estimated it would spend more than
$1.2 million in the next 12 months for the estimated 266 units expected to be materially
noncompliant with HUD’s housing quality standards.




                                           14
Agency name: The Oklahoma City Housing Authority
Report number:     2007-FW-1004
Issue date:        December 8, 2006

The Authority operated its Section 8 program in compliance with HUD requirements. Generally,
it computed housing assistance payments correctly and had effective controls in place to ensure
that it met housing quality standards; however, the Authority made minor errors in computing
housing assistance payments.

Agency name: The Housing Authority of the County of Los Angeles
Report number:     2007-LA-1007
Issue date:        April 3, 2007

Of 68 program units inspected, 50 units did not meet HUD’s housing quality standards, and the
Authority did not complete timely housing quality standards inspections.

Agency name: The Vancouver Housing Authority
Report number:     2007-SE-1003
Issue date:        April 3, 2007

The Authority generally procured goods and services in accordance with HUD regulations, had
not pledged HUD assets as security for its recent development projects, and generally operated
its program in accordance with HUD requirements. However, it did not perform quality control
inspections of its housing quality standards inspections to ensure that the assisted units met
housing quality standards as directed by HUD. In addition, the Authority did not perform
promised tenant file reviews to ensure that the files were complete and the housing assistance
payments were correctly calculated.




                                          15
Appendix B

   AGENCIES WITH HIGH HUD SECTION 8 MANAGEMENT
    ASSESSMENT PROGRAM SCORES BUT VERY POOR
                 HOUSING QUALITY


                                                       Percentage of
                                                          units in
                                                         material         HUD Section 8
                            Agency                    noncompliance        Management
                             fiscal      Date of       with housing    Assessment Program
    Agency name               year        OIG             quality      fiscal year score and
 OIG report number          ending     inspections      standards           designation
     The Dayton
 Metropolitan Housing
      Authority                                                          Fiscal year 2006
                                       Jan. 16-Feb.
    2007-CH-1008            June 30      1, 2007          94.92         90 – high performer
  The Madison County
   Housing Authority                    Nov. 28-                         Fiscal year 2006
                                        Dec. 7,
     2007-CH-1010           Dec. 31      2006             72.92         95 – high performer
The Housing Authority
of the City of Evansville                                                Fiscal year 2005
                                       Aug. 21-31,
     2007-CH-1003           Dec. 31      2006             69.84         93 – high performer
      The Housing
     Commission of
     Anne Arundel                       Feb. 20-                         Fiscal year 2006
                                        Mar. 2,
    2007-PH-1011            June 30      2007             49.18         97 – high performer
 The Lubbock Housing
      Authority                                                          Fiscal year 2005
                                       June 5-14,
     2007-FW-1001           Sept. 30     2006             49.18         96 – high performer

See appendix A for summaries of these audits.




                                          16
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation    Auditee Comments




Comment 1

Comment 2




                        17
Comment 3




Comment 4




            18
                         OIG Evaluation of Auditee Comments



Comment 1   We removed all citations of proposed regulations from the report. We also
            considered HUD’s suggested editorial revisions and incorporated some of them
            into the final report.

Comment 2   The dollar estimates for housing assistance payments and administrative fees for
            our external audits summarized in appendix A pertain to housing assistance
            payments and administrative fees paid for units not meeting housing quality
            standards. We included these audit summaries in order to provide the reader a
            better understanding of why we performed the internal audit.

Comment 3   We agree that the housing authorities administering the voucher program do not
            own the units and are not responsible for the routine maintenance of the voucher
            units and monitoring of tenant damages. In order to avoid calling into question
            routine maintenance issues, our external reports dealing with housing quality
            standards issues only cited fail items that were in material noncompliance with
            housing quality standards. In addition, the units often had fail items which were
            present at the time of the previous inspection (See Footnote 2 on page 2). Thus,
            we were very conservative when citing individual fail items or when failing
            Section 8 units overall.

Comment 4   We agree that the results for our previous 47 external audits of housing authorities
            administering the Section 8 Voucher program cannot be projected to the
            nationwide universe of 2.2 million voucher units.




                                        19
